ass
Honorable Justices of the Supreme Court of the United States
United States of the Supreme Court
One First Street, NE
Washington, DC 20543
7568 N US Hwy 421
Clinton, NC 28328
June 11, 20121
Reference: 20-7559, Rehearing

Dear Justice John Robert, Clarence Thomas, Stephen Breyer, Samuel Alito, Sonia Sotomayor,
Elena Kagan, Neil Gorsuch, Brett Kavanaugh, Amy Coney Barrett
I am requesting that a Rehearing is permitted. Rule 44, Rehearing: 1. Any petition for
the rehearing of any judgment or decision of the Court on the merits shall be filed within 25
days after entry of the judgment or decision, unless the Court or a Justice shortens or extends the
time. The petitioner proceeding as an in forma pauperis: Lora Kay Oxendine-Taylor (LKOT);
with, the Supreme Court Case No 20-7559; and the defendant is the Eastern Band of Cherokee
Indians Council. The petition shall state its grounds briefly and distinctly and shall be served as
required and unrepresented by counsel. The rehearing presented in good faith. My signature
shall bear witness to my good faith.

In the rehearing, Rule 14: The question resides, who has jurisdiction to a Last Will and
Testament. Approved by Council of the Eastern Band of Cherokee Indians (EBCI); and,
approved by the Bureau of Indian Affairs within the Department of Interior in 2006. In addition,
without a crime, a Last Will and Testament removed once in place after statue of limitations ends
that challenge the testator's Last Wishes surpassed the 3year time frame for challenging.

The Eastern Band of Cherokee Indians Council, inherited laws. To pick and choose what
fits the scenario creates unjust mannerisms within the legal frames of justice. Discrimination is
apparent as the Laws are not being followed to Last Will and Testaments within the EBCI. As
two cases soon are within the doorways of Supreme Court of the United States (SCOTUS). My
concern interest comes within the 1800 law which the tribal guidance to intermarriage was set:
1

The acts relating to intermarriage with whites contained many restrictions, but
by the act in respect of the intermarriage of Cherokees with other Indians no
such restrictions were imposed. Cherokee act of Nov. 27, 1880. That act provided
that the marriage should be contracted according to the law regulating marriages
between 'our own citizens,' and declared that such Indian 'shall be and is hereby
deemed a Cherokee to all intents and purposes and entitled to the rights of other
Cherokees.' There is no such language in the acts relating to intermarried whites
(28) 1.
To have the Lower Courts in NC stipulate they have no jurisdiction, and the EBCI Tribal
Courts denied accesses, my concern comes to my husband's (Marvin John Taylor (MJT)) last
wishes treated in the manner of the highest disrespect. What does this say about Tribal Laws in
Last Will and Testaments? A Last Will and Testament has always been seen as Sacred in all
Nationalities. Bound by law and laws to the best of knowledge, people would not write Last
Wills or seek the measure legally knowing removal would occur as it has. How unexpected that
laws within a tribal government removed a binding agreement, as well all laws that bind that
agreement within the state. This illegal process, then to have the SCOTUS remove on June 01,
2021, has denied. Yes, one may understand when laws protect ones last wishes, but difficult to
do when removed for no factual reason. The dyslexia manner continued to ride over the
processes required while achieving alone. I am, asking the Supreme Court Justice's to see the
urgency to correct the measures at hand to this Last Will and Testaments of my husbands. Tribes
who follow State Laws as the EBCI does within North Carolina (NC). What may not be
punishable under the laws, may not be question within the SCOTUS is a harsh reality in
America. The act here is not about how one delivers, but that it is being delivered. The women
and men, who marry into a tribal nation, give all they have to a marriage and a resolution is
required other that the continued denial in courts of law. Being a Widow is hard enough, and
even harder when a tribal government denies the last wishes of one of their own members.

I diligently looked over the laws (Rule 44); yes, for my husband dignity even in death.
Since this denial from the Supreme Court of the United States (SCOTUS) occurred, and who
seeks to understand the decision made. Because of the format deliver, not being professional
enough, to what mandates are made, that a Last Will contested. This journey to protect my

https://www.law.cornelLedu/supremecourt/text/203/76

2

husband written words to his last wishes, a difficult one under poverty and homelessness forced
upon me. And though all legal avenues the doors have been shut only provides that a just system
is not placed. Thank the Lord for covering me under his wings, for mans are not so comforting.
I am asking the support from every Supreme Court Justice in this request for Rule 44 Rehearing
to concur and implement concerns to what has been achieved without due process. This case
deserves the Supreme Court Justices attention. This was a tribal vendetta, as a Lumbee Woman,
of the Lumbee Tribe of Cheraw Indians, and to have legally binding in writing close to 55-60
acres within the Qualla Boundary of the EBCI, the actions against my husband has created a
vicious transaction. The concerns placed as a Cherokee enrolled member (my husband) wrote
his Last Wishes in 2002, five years before his death. To see him disrespected in such a manner
is heart retching. To know the laws that have been dismissed is disappointing in the best
description, as these are a few laws that protect the Last Wishes within Tribal Territory Laws;
and those laws included within Supreme Court Case No 20-7559, not mentioned here within
these comments:
https://www.law.cornell.edu/supremecourt/text/203/76
https://www.loc.gov/law/help/american-indian-consts/PDF/28014172.pdf
haps://www.tribal-institute.orelists/icral968.htm
https://www.law.cornell.edu/constitution/amendmentxiv
https://www.oyez.org/cases/1966/395
https://caselaw.findlaw.com/us-supreme-court/435/191.html
https://www.courtlistener.com/opinion/323374/nettie-s-crowe-a-member-of-the-easternband-of-cherokee-indians-v/?
littps://w w w.doi .gov/oh a/organ ization/ibia/In ian-Probate-and-Probate-Type-Appeals
https://www. law.cornelLedu/supremecourt/text/203/76
https://uscode.house.gov/view.xhtmRpath./prelim Ptitle25/chapter3.0&edition=prelim
https://co u rts.mt.gov/Portals/189/1i brary/c le/docs/Indianwillform .pdf
https://www.govinfo.gov/content/pkg/U SCODE-2015-title25/html/U SCODE-2015title25-chap I 4-subchapX111-sec564h.htm
https://library.municode.com/tribes and tribal_nations/eastern_band_of cherokee_indians/odes/c
ode of ordinances?nodeId=PTIICOOR CH28IN

3

littps://www.courtlistenencom/opinion/1278452/in-re-pendergrasswill/
1Mps://www.law.cornell.edu/uscode/text/25/2206

I sought to make a living for myself that would benefit the family (husbands), and in
observation of the mannerisms and behaviors by Tribal Council they do not match up with the
laws above. There was no intention to be disrespectful on my behalf. Although, I was struck
upon for being a member of the Lumbee Tribe of the Cheraw Indians [yes, I know the history
untold]; and a woman with substantial land rights to occupy, control and manage as a life estate,
an heir according to the laws at the time within the EBCI. Instead of seeing what could have
prospered; laws were dismissed left and right. And, worked within the EBCI from teaching,
tribal historic preservation, health I continue to be in awe of what is occurring. The SCOTUS
might recognize concern as the EBCI feels they may not follow the request of forms sent
concerning your (SCOTUS) waiver and recommendations. As of this date (June 12, 2021), I
have yet to hear from the EBCI concerning their comments to SCOTUS's request.

Having the funds and knowledge afford to achieve these law manners correctly possible
the act of a rehearing would not have been needed. Possibly this interest of a binding Law to
Wills would not be at your bench; and, would have never sent my initial draft in like I did as a
measure of distress. I truly could not grasp the procedures, as I know this case is somewhat
challenging all around. And, political, would be one of those challenges. My husband entrusted
me to fulfil his wishes as well his tribe (EBCI) or they would not have approved in 2006 with a
quorum vote. The husband would not have wasted his time in the protocol of achieving a lasting
will knowing these actions would be placed. This rehearing and acceptance of the case no. 207559 becomes that of the urgency for all women. Especially those who marry a tribal person or
member of a Federal Recognized Tribe; as well, men/man.

Below is the time frame recorded within the EBCI Council House, as my name placed
concerning husband's Last Will and Testament. The processes to achieve banishment, removal
of Will, has achieved what. That we or I know the law does not support the widow. An
unfortunate path has me placed that was caused by the EBCI; and, I am, unable to transcribe or
make copies or obtain the recordings of this actions. These are the dates SCOTUS may seek to

4

obtain and review as placed within the EBCI minutes and recordings of Tribal Council of the
EBCI:
2-2-06 General Tribal Council
4-10-14#1
4-10-14 #2
4-10-14 #3
5-1-14 Tribal Council
5-5-16 #1Tribal Council
5-5-16 #2 Tribal Council
6-25-14 Tribal Council
6-2-16 Tribal Council
8-3-17 #1 Tribal Council
8-3-17#2 Tribal Council
9-14-17 Tribal Council
9-14-17 Tribal Council
It should be noted: no crimes committed by the in forma pauperis (LKOT) and a Last Will exist.
In the 1800 which the tribal guidance committed to intermarriage was implemented.
Both husband and I, who are of Indigenous descent and tribal member of the Southeastern
Aboriginal Territory within North Carolina (NC). As, in 2014-2021, I as the widow, have been
refused (above recorded dates and homeless since 2017) legal provisions that even a criminal is
permitted. Dismissed from my home without a crime, doing my best to stand up for what my
husband final wishes, and this the protection of the law of the land:
The acts relating to intermarriage with whites contained many restrictions, but
by the act in respect of the intermarriage of Cherokees with other Indians no
such restrictions were imposed. Cherokee act of Nov. 27, 1880. That act
provided that the marriage should be contracted according to the law regulating
marriages between 'our own citizens,' and declared that such Indian 'shall be and
is hereby deemed a Cherokee to all intents and purposes and entitled to the
rights of other Cherokees.' There is no such language in the acts relating to
intermarried whitest.
These agreements signed within the Eastern and Western Cherokee Constitution of 1892
along with Creek signatures agreements to marriage standards have been tribally placed. The
Cherokee Freedman have more rights than one Indigenous woman who married a direct
descendent of the EBCI; as well, LoraX, who entered the 4th U.S. Circuit Court of Appeals in
Richmond, VA., a three judge panel declared the U.S. Forest Service "abdicated its
2

httPS://WWW.law.cornell.edu/supremecourt/text/203/76

5

responsibility to preserve national forest resources"3. My concern is not just jurisdiction, it is
about a Last Will and Testament. Marvin John Taylor's (MJT) who a member of the EBCI
revoke like permission was given and it was not. As the BIA, is not addressing the concerns
either, with no recourse by any legal federal agency less SCOTUS. I stand before the SCOTUS
for help. The EBCI Council stipulated: We would not want this to happen to our spouse as they
are not members of the Tribe (EBCI). This recorded, but unable to translate or copy material
from CD's or online with the recorded minutes of tribal council or obtain a copy to send as
mentioned. Yet, my husband's last wishes removed without cause or crimes; and, as Wills are
to be upheld; I am here pleading to the highest court of the lands, not to deny or pass this
importance as if it does not matter. Shall it take another to endure hardship of tribal domestic
violence as these are a few types of violence endured since the actions of the EBCI occurred in
Aug 2017:
1). Emotional — 2014-2021, homelessness
Psychological -2014-2021, the emotional strain of protecting a Last
Will.
Spiritual — 2014-2021, I thought of locking myself up in a storage
building and ending it all.
Cultural — this is not the Indigenous way.
Verbal Abuse - have endured, but there is the clause on hearsay I beleive.
Financial Abuse — living in poverty since 2017-2021
Medical attention to these harassments has not been achieved. To be a burden on family and
friends and states (NC, TN) is hard enough to be a witness to.
This courts (SCOTUS), may find interest concerning these matters of Last Wills having
compassion to know the laws have been dismissed that causes stressful suffering on this widow.
The EBCI determined within Code § 28-1(a) heirs, and adoption of North Carolina Laws of
inheritance. But, you may not find the importance to my husbands (MJT) Last Wishes or myself
as an Indigenous Woman homeless from wrongdoing legally within Federal Law.

https://www.npr.org/2018/12/14/676950106/quoting-the-lorax-court-pulls-permit-for-pipeline-crossingappalachian-trail

6

I am asking for a rehearing; an understanding to legal processed denied and dismissed.
Indigenous People have no rights under the law, or they do. Is this so political that a widow
would endure these years of homelessness in being denied by the highest court in America. In a
crude manner all events engaged in have been sent as the doc no. 20-7559, is within your
(SCOTUS) care. To do this alone without help is only the Lords will. I may plead upon the
Justices of the SCOTUS to see the need to hear this case; and, let it take precedence that these
acts are not brough before you again. Once again, I make the request for a rehearing, but this
time with SCOTUS and have every Supreme Court Justice at hand. Why, surly you would not
want your daughter, niece, or female friend to endure. Additional information is attached:
mailed correspondences via signature upon receiving; the EBCI Tribal Council binding
agreement with marks approving Last Will, in February 2006; also attached in the year 1825
concerning written wills; and Chapter 28 of the EBCI Inheritance Laws of North Carolina
adopted; and a map showing the placement of the Cheraw who are of the Maskoki (Creek)
People. This map will clear up why the interest of the Creek would have been engaged within
the Aboriginal Territory with the 1800's East and Western Cherokee Treaty. The initial
submission has what I thought a lawyer would greatly enjoy for its facts and truth; but, denied.

There is nothing "frivolous" about the actions presented before you (SCOTUS) as the
lower case stipulates. I have no justified answer to why this case has been denied other that
political. The Indian Civil Rights Act (ICRA (25 U.S. Code§1301-1304); Civil Rights Act the
14th Amendment; Violation of Probate Law 25 USC 373-373; Executive Order 1988, are being
dismissed when a Last Will resides over a decision approved in 2006. I am not against the
Cherokee (EBCI), but the disrespect placed upon my husband should be corrected and it seems
the SCOTUS may be the only recourse to correct these actions and from ever occurring to
another widow or widower. Is carte blanche towards Last Will and Testaments the mandate of
the law in 2021? As well a treaty is being ignored by tribe:
WHEREAS, By the treaty executed at Washington, on the 19th day of July, A. D.
1866, between the United States and the Cherokee Nation, through its delegation,
ratified by the Senate and officially promulgated by the President of the United
States, August 11, 1866, certain things were agreed to between the parties to said
treaty, involving changes in the Constitution of the Cherokee Nation, which
changes cannot be accomplished by the usual mode...4
https://www.loc.govilaw/help/american-indian-consts/PDF/28014172.pdf

7

When tribes start breaking their own treaties a larger problem is at hand that govern. The BIA
had stipulated: we cannot write anything for you, but the tribe cannot remove a Last Will and
Testament. This from the Nashville, TN Office; as well, Albuquerque, NM office. I know
hearsay is what it is legally, but the names have been attached within the initial submission (207559). Yet, with several phone calls and information sent they are not responding either.

With all due respect, I'm trying to correct a wrong that was implemented. My legal
manner to fully address the processes at hand is trying; but, doing the best one may with all the
limitations forced under. Yes, the case should be seen as an imperative public importance as to
justify deviation from normal appellate practice and to require immediate determination in this
Court in favor of the plaintiff to hear the case. This may be seen within the Facebook dialog
submitted and shared within 20-7559.

One's last wishes within the EBCI, the members do not matter under the laws and
standards set forth by governing agencies (Tribe and the State of NC). The BIA stipulates: A
party who disagrees with the initial decision must seek rehearing from the Judge before
appealing to the Board. See 43 C.F.R. 4.241 and 4.320; and no one challenged (Probates Arising
Under 25 U.S.C. 372-373)$. I truly should not be before you with this rehearing less the Writ of
Centerior, but I am. And requesting with all due respect that you all accept this case.

I, as the research and continue learning wrong has occurred: A last will and testament, a
written legal document stating what you want to happen to your estate (your "stuff") after
your death6. As he (MJT) achieved. May I ask, why the Supreme Court of the United States
would defy/resist hearing this case of importance to protect women and men from enduring
what I have within 20-7559? The continued denial: Yes, the U.S. Constitution requires that
all states give full faith and credit to the laws of other states. So, if your Last Will and
Testament is valid under the laws of the state in which it was made, then it will be honored in

5
6

https://www.doi.gov/oha/organization/ibia/Indian-Probate-and-Probate-Type-Appeals
https://www.posticbates.com/blog/what-is-a-will

8

all other states.? I am asking that you permit the rehearing as laws continue to be denied within
the State of NC. Yes, make me whole that I may once again lay my husband to rest that he has
peace; as well, I.

Rule 33: and 15 pages for a reply to a brief in opposition, brief opposing a motion to
dismiss or affirm, supplemental brief, or petition for rehearing. As I bare witness it is my
prayer the Clerk of Court and Justices of the Supreme Court of the United States adheres to the
approval of this case before you. No matter the unpracticed standards to how I implement.
Rule 11 Certiorari to a United States Court of Appeals before Judgment
A petition for a writ of certiorari to review a case pending in a United States court
of appeals, before judgment is entered in that court, will be granted only upon a
showing that the case is of such imperative public importance as to justify
deviation from normal appellate practice and to require immediate determination
in this Court. See 28 U. S. C. 5 2101(e)8.

It is my prayer that another may not enter the courts to where a Last Will is challenged.
The case 20-7559 compiled warrant's more respect than it is being given. A Last Will and
Testament is binding by law and removed. May my husband rest in peace with dignity. With my
signature, as a child born and raised within the military (Fort Campbell KY), who has
implemented the good faith effort with binding truth here I will sign my name.

With all respect, truth, and honor, on June 13, 2021, my full faith and respect give to you
with my signature.

Sincerely,

Lora Kay Oxendine-Taylor

7

https://www.google.comjsearch?q=what+is+the+constitution+on+last+will+and+testament&oq=what+is+the+Con
stitution+on+Last+will+and+te&am=chrome.1.69i57i33i160j33i29912.13816i0i7&sourceid=chrome&ie=UTF-8
8

https://www.Iaw.cornell.edu/rules/supct/rule_11

9

